Supreme Court, U.S.
FILED

WAIVER

AUG 2 5 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-124

Robert Fusco

Tony Mays, Warden
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE't6-the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

F Please enter my appearance as Counsel of Record for all respondents.
111 There are multiple respondents, and I do not represent all respondents. Please enter my
apped'ance as Counsel of Record for the following respondent(s):
(

0 I am a member of the Bar of the Supreme Court7ofthe' United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

August 24, 2020

(Type or print) Name

Thomas Austin Watkins
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Office of the Tennessee Attorney General

Address

P. 0. Box 20207,

City & State
Phone

Nashville, Tennessee

(615) 532-1119

Zip
Email

37202

austin.watkins@ag.tn.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: RObert Fusco

RECEIVED
SEP - 2 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

